SMITHSONIAN INSTITUTION 


 Office of the Inspector General 





           Audit Plan 

        Fiscal Year 2012 





          September 2011
Introduction
This Fiscal Year 2012 Audit Plan communicates the Smithsonian Office of the Inspector
General’s audit priorities to the Smithsonian Institution, the Congress, and the public.

Our office promotes effective governance and enhances accountability by providing independent
and objective evaluations of the Institution. We strive to conduct audits of those programs and
operations that pose significant risks, focusing on areas where we may effect meaningful results.
In developing this plan, we sought the input of management and staff throughout the Institution.
All our proposed audits advance the Institution’s strategic priority of enabling the mission
through organizational excellence and, we hope, can inform the “Smithsonian Redesign” efforts
now underway. Our audits will seek to improve efficiency and reduce costs in Smithsonian
operations, an especially important goal in this difficult economic climate; improve
accountability for funding decisions; support the search for external financial resources; examine
controls over operations outside the Washington area; and serve programmatic priorities,
including strengthening collections. Ultimately, the results of our audits should increase all
stakeholders’ confidence in the Institution’s stewardship of its resources, from its collections and
research to its systems and staff.

The audits for fiscal year 2012 fall into three categories: first are audits carried over from FY 2011,
most of which we described in detail in our FY 2011 Audit Plan. Second are three mandatory sets
of audits: (1) the annual audits of the Smithsonian’s financial statements, which we oversee; (2)
the annual reviews under the Federal Information Security Management Act, which we also
oversee; and (3) an audit of the travel expenses of members of the Board of Regents, conducted at
their request to fulfill a statutory requirement.

The third category comprises audits we selected after considering the key ongoing and emerging
risks facing the Smithsonian and after asking for input from unit directors and other
management throughout the Institution. We will conduct audit work in ongoing risk areas such
as internal controls over financial management. In emerging risk areas, we will examine the
management of the largest building project the Smithsonian is currently undertaking (National
Museum of African-American History and Culture), and the operations of the Office of
Sponsored Projects, whose workload is increasing as the Institution seeks more grants and
contracts. We will also continue our multi-year commitment to examine collections stewardship
at the museums. And we will be returning to the Smithsonian Tropical Research Institute to
conduct a comprehensive review of its financial and other support operations.

The list of audits on the following page reflects our current workload and estimated resources for
FY 2012. (The appendix shows how we calculated total staff time available to conduct our work.)
We also include a list of potential future audits. We believe every audit in this plan would yield
significant benefits to the Institution. Yet we recognize that issues of more immediate concern
may arise and we want to be able to address them as well. Thus, rather than a firm schedule, this
plan outlines the larger projects we believe to be critical, with the understanding that if new
matters merit review by OIG audit staff, we will adjust our priorities accordingly.




                                 Smithsonian OIG FY 2012 Audit Plan
                                               Page 1
                        Planned Audit Work for FY 2012 




FY 2011 Audits Carried Over

      Employee Travel Expenses 

      Center for Folklife and Cultural Heritage Financial Operations 

      Oversight of the FY 2011 Federal Information Security Management Act 

       Evaluation 

      Oversight of the FY 2011 Financial Statement Audits 

      Office of Advancement Donor Management System Internal Controls 




Mandatory Audits

      Oversight of the FY 2012 Financial Statement Audits
      Oversight of the FY 2012 Federal Information Security Management Act Program
       Evaluation
      Travel Expenses of the Members of the Board of Regents



Other Audits

      Management of the National Museum of African-American History and Culture
       Building Project
      Office of Sponsored Projects Redesign
      Use of Consulting Services
      Smithsonian Tropical Research Institute
      Collections Objects Security Escorts
      Management of Leased Office Space
      Financial Reporting and Risk Management Internal Controls




                              Smithsonian OIG FY 2012 Audit Plan
                                            Page 2
Mandatory Fiscal Year 2012 Audits in Detail 





           Smithsonian OIG FY 2012 Audit Plan
                         Page 3

                Oversight of the FY 2012 Financial Statement Audits 


Objectives

We will oversee the Smithsonian’s annual financial statement audits, which include the
Smithsonian-wide financial statements, the federal special-purpose financial statements, and the
OMB Circular A-133 Audit.

Significance

The Institution’s financial statements are audited by KPMG. As the Contracting Officer’s
Technical Representative with oversight responsibilities for the annual audits, we will review
audit documentation, evaluate key judgments, and monitor progress in order to express
concurrence with the external auditors’ reports and determine whether their work conforms to
relevant auditing and accounting standards. We will use the Government Accountability Office
Financial Audit Manual and the oversight programs developed by the Council of the Inspectors
General on Integrity and Efficiency as guides for monitoring KPMG’s work.

At the completion of our work we will report the results of our oversight in a letter to the Audit
and Review Committee. The letter will include our observations on and suggestions for
improving the financial reporting and audit process, including following up on our prior year
observations and evaluating and providing suggestions for the Smithsonian Finance Redesign
efforts.

Potential Impact

Our oversight will provide reasonable assurance that KPMG complied with professional
standards in conducting the audits and that the Institution’s financial statements are accurate and
complete. In our quality assurance letter, we will report on our observations on the Institution’s
financial accounting and reporting process and make recommendations for improvement.

Staffing Requirement

60 staff days




                                Smithsonian OIG FY 2012 Audit Plan
                                              Page 4
  Oversight of the FY 2012 Federal Information Security Management 

                        Act Program Evaluation

Objectives

We will evaluate the effectiveness of the Institution’s information security policies, procedures,
and practices under the Federal Information Security Management Act (FISMA), including the
effectiveness of the implementation of our recommendations in prior FISMA reviews.

Significance

The Smithsonian depends on computerized information systems and electronic data to carry out
its programs and activities. Security measures are essential to prevent data tampering and
destruction, service disruptions in critical operations, unauthorized disclosure of sensitive
information, as well as fraud.

Although the Smithsonian is not subject to FISMA, it has elected to implement FISMA’s
requirements to ensure that it has an effective information security program. FISMA requires
that the OIG perform an independent annual evaluation of the Institution’s information security
program and practices, including the testing and evaluation of controls to safeguard information
and systems. Previous OIG information security audits have identified significant weaknesses in
information systems and highlighted the need for improvements in network access controls,
security awareness and training, disaster recovery, system documentation, flaw remediation, and
configuration management.

An Independent Public Accountant (IPA) will conduct the evaluation. As the Contracting
Officer’s Technical Representative, we will review the IPA’s documentation, evaluate key
judgments, and monitor progress so we may express concurrence with the IPA’s reports and to
determine whether their work conforms to relevant auditing and information technology
standards and practices.

Potential Impact

The audit will make recommendations to improve the efficiency and effectiveness of information
security program activities.

Staffing Requirement

60 staff days




                                Smithsonian OIG FY 2012 Audit Plan
                                              Page 5
          Travel Expenses of the Members of the Board of Regents


Objectives
We will audit the travel expenses for those members of the Board of Regents who seek
reimbursement for expenses associated with attending Board meetings.


Significance
The Executive Committee of the Board of Regents requested this audit to fulfill the statutory
requirement under 20 U.S.C. § 44.

This is an annual audit by the Office of the Inspector General on behalf of the Audit and Review
Committee of the Board of Regents. The audit will ensure that expenditures are authorized,
supported, and reasonable.


Potential Impact
For those expenditures that are not authorized or not supported with sufficient documentation,
or that may appear excessive, we will recommend that the Executive Committee recover the
funds.


Staffing Requirement
25 staff days




                                Smithsonian OIG FY 2012 Audit Plan
                                              Page 6
Other Fiscal Year 2012 Audits in Detail





        Smithsonian OIG FY 2012 Audit Plan
                      Page 7

        Management of the National Museum of African-American 

                History and Culture Building Project 


Objectives

This audit will establish an ongoing audit presence to ensure that the Smithsonian has sufficient
controls in place to keep the National Museum of African-American History and Culture
(NMAAHC) building project on time and within budget. In this first phase we will (1) evaluate
team members’ (including Office of Facilities Engineering and Operations (OFEO), the Office of
Contracting and Personal Property Management, NMAAHC, as well as contractors’ staff)
understanding of their roles and responsibilities and assess the cohesiveness of the team; (2)
assess the bidding process; and (3) review change management procedures.

Significance

The $500 million project to build NMAAHC will have multiple funding sources, with a 50/50
split between federal appropriations and trust monies. OFEO estimated the distribution of funds
to major project categories as follows:

                                                      Working Estimate
                                                       ($ in millions)
                    Planning & Programming                  $ 6
                    Pre-Design/Design                       $ 42
                    Construction                            $336
                    Construction Management                 $ 29
                    Exhibits                                $ 89
                    Total Project Cost Estimate             $502

For this project, OFEO selected the Construction Management at Risk (CM@R) contract delivery
method, the first project of its size at the Smithsonian to use a CM@R contract. The CM@R
contract method mitigates cost and manages risks associated with schedule and budget issues by
providing professional management assistance, such as schedule, budget, and constructability
advice, prior to construction, which should result in fewer change orders in the construction
phase and thereby help control costs. In addition, CM@R allows construction to begin prior to
the completion of the all portions of the design. However, there are risks in the CM@R method
once construction begins, when the CM@R converts from a professional advisory role of
construction manager to role of the general contractor, which can lead to tensions over
construction quality and the completeness of the design, and may affect schedule and budget.

Potential Impact

The audit will make recommendations to strengthen project management to ensure that
NMAAHC opens on time and within budget, and assess the CM@R delivery method for use in
future projects.

Staffing Requirement

325 staff days




                                  Smithsonian OIG FY 2012 Audit Plan
                                                Page 8
                       Office of Sponsored Projects Redesign 


Objective

The audit will assess the effectiveness of the changes in the operations of the Office of Sponsored
Projects (OSP) resulting from the recommendations of the Sponsored Projects Redesign Team.

Significance
OSP helps Smithsonian units obtain external funding (grants and contracts) from both
government and private sources to support research, exhibitions, and other mission-related
projects. OSP assists units in all phases of the process, including application, budgeting, and
compliance with grant and contract terms. Smithsonian leadership has identified sponsored
projects as a key source of increased revenue for the Institution and expects rapid and continued
growth in external funding.

In fiscal year 2010, the Institution (excluding the Smithsonian Astrophysical Observatory, which
manages its grants and contract separately) submitted a combined total of 433 grants and
contracts proposals seeking $148 million in funding, and received 339 awards totaling
approximately $65 million. Both the number of awards and the amounts were about the same as
the prior year. However, OSP had projected a 58% increase in funding in 2010 of $100 million.

Smithsonian officials recognize that to support the growth of external funding through OSP will
require changes to its organization and operation. Through the work of the Sponsored Projects
Redesign team, officials from within OSP and from the units are working to devise reforms to
advance OSP. One of the longstanding challenges affecting OSP, as reported again by KPMG, the
Institution’s external auditor, this year, is the need to improve its accounting operations.
Manually intensive accounting functions and inconsistent application of accounting principles
produced errors in its financial reports causing extensive corrections and year-end
reconciliations. Other challenges under review by the redesign team involve cultivating financing
opportunities from within the units and seeking new sources of external funding, a shift from
relying on known grant and contract availabilities.

The redesign team will end its work by the close of FY 2011 and set forth its recommendations
during fiscal year 2012 and beyond.

Potential Impact
We will assess the effectiveness of the recommendations to strengthen OSP service to the units
and ultimately to increase the number, amount, and source of external funding to the
Smithsonian.

Staffing Requirement

325 days




                                Smithsonian OIG FY 2012 Audit Plan
                                              Page 9
                               Use of Consulting Services 


Objectives

This audit will assess the Smithsonian’s use of consulting services to improve its operations,
including how the Institution determines whether to hire external consultants and how the
Institution follows through with the results of the consultants’ work.

Significance
In March 2009, President Obama issued a memorandum stating that excessive reliance by
government agencies on contracts creates a risk that taxpayer funds will be spent on contracts
that are wasteful, inefficient, subject to misuse, or otherwise not well designed. Furthermore, in
June 2011, the President encouraged Chief Financial Officers to realize cost savings by targeting
wasteful practices and by reducing, and identifying alternatives to, the use of consultants, among
other things.

The Smithsonian does not keep complete records of the money spent on consulting contracts.
Because Smithsonian employees do not consistently classify consulting expenses in the
accounting system, we cannot determine exactly how much the Institution spent on consultants
in previous years. The scope and cost of consulting studies vary across the Smithsonian. Some
consulting studies, such as those dealing with reforming internal controls, applied to business
operations across the Smithsonian and were costly and multi-year. Others are small enough to
be classified as simplified acquisitions and handled directly by the units. In fiscal year 2010, the
Smithsonian spent approximately $13.5 million in simplified acquisitions alone for consulting,
more than $9 million of which was federal. We will concentrate on consulting and advisory
engagements that deal with the general operations of the Smithsonian.

Potential Impact
Our audit will determine whether the Smithsonian used consultants in a productive manner. If
we find that the Institution is awarding consulting contracts, but not implementing consultants’
recommendations, we will follow through to understand whether those decisions were deliberate
decisions to decline to act on consultants’ work, or resulted from a lack of resources, poor
contract management, questionable bases for the initial need for external expertise, disregard for
available expertise in-house, or management inattention to project follow-through. By being
more systematic and deliberate about consulting contracts, the Institution may be able to
enhance the benefit of contracted services.

Staffing Requirement
325 staff days




                                 Smithsonian OIG FY 2012 Audit Plan
                                              Page 10
                     Smithsonian Tropical Research Institute 


Objective
The objective of the audit will be to conduct an overall assessment of the adequacy of the main
operational functions at the Smithsonian Tropical Research Institute (STRI). We will conduct a
risk analysis of the human resources, information technology, accounting, procurement, and
contract management operations.


Significance
STRI, located in Panama, is devoted to understanding biodiversity through tropical research. In
operation since 1923, it is the only unit of the Smithsonian based outside of the United States. Its
distance from much of the Smithsonian and the unique demands of operating in another country
create management and oversight challenges unlike those of the other units within the
Institution. Such challenges have limited the OIG audit presence in recent years. The STRI
Director has asked that the OIG review STRI operations.

We will seek to assess the effectiveness of operations to ensure program efficiency and
effectiveness and of internal controls to safeguard against improper and illegal conduct, provide
support from central Smithsonian units, and staff STRI with sufficient human resources. At the
conclusion of the survey phase of our work, the OIG will issue a report on its analysis to the STRI
Director. The report will communicate areas of immediate concerns along with
recommendations for improvement. The OIG will rely on its survey results to conduct further
audit work.


Potential Impact

Our audit will identify areas of immediate concern along with recommendations for
improvement in the short term. Longer term, we will highlight potential areas for detailed audit
work that will result in recommendations for operational improvements.


Staffing Requirements

400 staff days




                                Smithsonian OIG FY 2012 Audit Plan
                                             Page 11
                        Collections Objects Security Escorts 


Objectives
This audit will determine whether museum staff are transporting high-value collections objects
with appropriate security and in the most cost-efficient manner.

Significance
The Smithsonian frequently transports high-value and high-risk collections objects, such as
Stradivarius string instruments, numismatic objects, historical documents, and gems to and from
Smithsonian facilities and other locations for loans, exhibits, performances, research, and
educational purposes. Prior to 2010, the Office of Protection Services’ (OPS) Security Services
Division (SSD) provided security escort services for the safe transport of these objects. The
Smithsonian’s Collections Management Implementation Manual directs collecting units to
contact the Division of Risk Management and SSD to coordinate security planning, risk
assessment issues, and collection transits. Object transport logs for fiscal years 2008 and 2009
showed that SSD staff regularly transported objects for the National Museum of American
History, the Renwick Gallery, and the National Postal Museum. In 2010, OPS disbanded the SSD
unit partly because of a lack of requests for the unit’s security escort and other services.

Since SSD has been disbanded, the Smithsonian has not reassigned responsibility or developed a
clear policy to regulate the secure transportation of valuable collections objects. Although former
SSD staff continue to provide object escort services for a few museums, there are no data on how
often they do so or the costs of doing so. Both OPS management and the Office of Risk
Management have expressed concern that, in an effort to minimize costs, museums may be
transporting objects without appropriate guidance or the support of OPS, increasing the risk of
damage, theft or loss.

This audit will be part of the ongoing series of OIG audits of collections stewardship at the
Smithsonian.

Potential Impact

This audit will make recommendations to ensure that the Institution is taking the necessary
precautions to protect collections objects while in transit. This audit will also determine whether
Smithsonian units are contracting with outside parties for services, and if so, whether such
services could be more efficiently provided by the OPS.

Staffing Requirement

300 staff days




                                Smithsonian OIG FY 2012 Audit Plan
                                             Page 12
                         Management of Leased Office Space 

Objectives
The audit will assess policies regarding the use of leased office space at the Smithsonian and seek
to identify best practices to reduce leased office space costs.

Background and Significance
Recognizing the need to reduce facilities costs, the Institution’s Strategic Plan emphasizes that the
Smithsonian will “optimize the use of resources to gain efficiency. … and develop procedures to
enable sharing of equipment and facilities.” Regarding the efficient use of office space, this audit
will examine the following areas:

Policy – We will examine the policy for such matters as authorization of existing office space, and
use of alternative office solutions such as teleworking and telecommuting to reduce costs while
increasing employee performance and productivity.

Strategic Planning – We will review the business and programmatic planning for use of future
office space. Recognizing that when units seek to reduce office space, it does not disappear
overnight and organizations downsize in pockets of space around the organization. We will
determine whether plans for alternative office solutions are part of the strategic planning process
to reduce office space costs.

Management and Oversight – We will examine how the units are controlling the costs of leased
office space and determine whether cost savings could be realized from excess leased office space.
This includes using alternative work strategies to improve productivity and space efficiency. For
example, the Smithsonian could realize cost savings through teleworking and telecommunting
using home accommodations or remote telecenters.

Business Agreements – We will assess whether the Smithsonian has standard lease agreements to
minimize leased office space costs.

Potential Impact

The audit will make recommendations to help ensure that the Institution minimizes costs
associated with leased office space through appropriate controls over its authorization, review,
and use.

Staffing Requirement
325 staff days




                                 Smithsonian OIG FY 2012 Audit Plan
                                              Page 13
                    Financial Reporting and Risk Management 

                                Internal Controls

Objectives
We will evaluate the adequacy of the recent reforms of internal controls over the Institution’s
financial reporting and risk management, focusing on Smithsonian Directive (SD) 310, which it
issued in June 2011.

Significance

SD310 provides the “policies and procedures for establishing, documenting, assessing, and 

reporting on financial management internal controls that are critical for safeguarding SI assets 

and resources.” Most importantly, SD 310 requires directors to provide assurance that their 

internal controls are efficient and effective. SD 310 should affect all of the Institution’s financial 

personnel, key SI systems and sub-systems; various manual and automated processes; and, most 

importantly, management’s attitude towards financial accountability and transparency.


The Institution has been working on reforming and strengthening its internal controls over 

financial management for 5 years, since the Regents issued their Governance Recommendations 

in June 2007. Over the past several years, we have reported in our annual financial oversight 

letters that Smithsonian leaders have not yet sufficiently committed themselves to sustained 

improvement in areas such as: 


       Identifying and resolving internal control deficiencies; 

       Managing and organizing decentralized accounting and reporting operations; 

       Complying with Smithsonian Directives and policies;

       Training and supervising employees adequately;

       Communicating effectively with central offices and the units; and 

       Preparing timely financial statements. 


Further, ongoing cuts and restrictions in the Institution’s budget, which are expected to continue, 

often result in eliminating or reorganizing positions, functions, control activities, and programs, 

increasing financial and operational risks that leave the Institution more vulnerable to fraud, 

abuse, and mismanagement. 


Potential Impact
Our review will indentify internal control weaknesses and make recommendations to improve
financial management and accountability at the Institution.

Staffing Requirement

300 staff days




                                  Smithsonian OIG FY 2012 Audit Plan
                                               Page 14
                               Potential Future Audits 


                                                                                   Estimated
                                                                                      OIG
       Title                                 Objectives                            Staff Days
Privacy Program      Assess the effectiveness of the policies and procedures          350
                     under development to safeguard personally identifiable
                     information across the Smithsonian.
Office of Protection Determine if the Office of Protection Services staffing          250
Services Staffing    plan achieved its goal to augment security and retain
                     valued members of its security force, including whether
                     the new plan improved attendance and reduced the need
                     for overtime pay.
Facilities           Assess the progress of the Office of Facilities Engineering      300
Requirements         and Operations’ development of a new approach to
Planning Process     facilities requirements planning and programming
                     through a clearinghouse for requirements management,
                     intranet tracking of capital and maintenance projects, and
                     expanded use of performance metrics.
Safety Management Assess the Office of Facilities Engineering and Operations’         300
                     initiatives to improve its Management Evaluation and
                     Technical Reviews of safety, fire protection, and
                     environmental programs across the Smithsonian and
                     their effectiveness in providing more timely abatement of
                     hazards, corrective action plans, and self-inspection
                     procedures.
National Zoological Examine financial operations at FONZ and the Zoo in               300
Park and Friends of support of the renewal of the fiscal year 2013 renewal of
the National Zoo     the agreement between the Smithsonian and FONZ,
                     including benchmarking key metrics such as gift shop
                     profitability, operating overhead calculations, parking,
                     and capital planning.
External Quality     Determine if the Office of Audit at the Office of Inspector      100
Control Review of    General of the Federal Trade Commission conducts its
the Federal Trade    audits in compliance with Government Auditing
Commission’s Office Standards.
of Inspector General
Wireless Network     Evaluate the use, management, and security of the                150
Management           Smithsonian Institution’s internal and public access
                     wireless networks.
Accountability and   Assess the effectiveness of SI fleet management, including       250
Maintenance of the   (1) provisions for authorizing and controlling all vehicle
Institution’s Fleet  maintenance and repair services; (2) provisions for
                     authorizing and monitoring all vehicle use and activity;
                     and (3) vehicle purchase and disposal.




                              Smithsonian OIG FY 2012 Audit Plan
                                           Page 15
                          APPENDIX 



            Estimated Staff Days Available 

              For New Audits in FY 2012 



                                                     Estimated
                  Description                        Staff Days
Total FY 2012 staff days*                                3075
Staff days required to complete FY 2011
carry-over audits                                         630
Available staff days for new audit starts in
FY 2012*                                                 2445


 *We calculated available staff days for FY 2012 based on 16
  full-time auditors and a standard work year of 205 days per
  auditor. We based the estimates on 100 percent staffing, but
  because of recent and expected vacancies, these estimates
  may vary; completing the FY 2012 Audit Plan will depend on
  filling open positions.




                Smithsonian OIG FY 2012 Audit Plan
                             Page 16
